No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN A.K.A.
ABU ZUBAYDAH, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI (WITH A SEPARATE APPENDIX), via
e-mail and first-class mail, postage prepaid, this 17th day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,987 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on December 17, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 17, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: USA v. Husayn, et al.
DAVID F. KLEIN
JOHN PATRICK CHAMBERLAIN
PILLSBURY WINTHROP SHAW PITTMAN LL[
1200 17TH STREET NW
WASHINGTON, DC 20032
John.chamberlain@pillsburylaw.com
David.klein@pillsburylaw.com
JERRY J. MOBERG
MOBERG RATHBONE KEARNS, P.S.
124 3RD AVE S.W.
EPHRATA, WA 98823-2619
jmoberg@mrklawgroup.com
CHRISTOPHER TOMPKINS
BETTS, PATTERSON & MINES, P.S.
701 PIKE STREET, SUITE 1400
SEATTLE, WA 98101
ctompkins@bpmlaw.com

